                               Closeout of Case Number M99060032

        An NSF program officer' brought this matter to our attention on June 16, 1999.
The program officer indicated that the subject2 of an award funded under NSF's
(redacted) Program might not have been eligible under the program guidelines3as of the
date of the program application deadline.4

      The program guidelines stipulate that "to be eligible . . . applicants MUST MEET
ALL" of the requirements including "not hold or have held tenure on or before the
program application deadline."

        The subject incorrectly answered a question regarding the date he attained tenure
on a (redacted) survey instrument, which gave rise to this allegation.' The actual date
that the subject was granted tenure6 was after the program application deadline for the
(redacted) award. The subject was in fact eligible to apply for the (redacted) award
when the program application was ~ubmitted.~

         This inquiry is closed and no further action will be taken on this case.


cc: Integrity, IG




' The program official is (redacted), formerly with the (redacted) Division in the Directorate for (redacted).
* The subject of this allegation is Professor (redacted). The award, (redacted), titled "(redacted)" was made
to (redacted).
  The program guidelines are the (redacted).
4
  The program application deadline was (redacted).
5
  The subject answered a question "(redacted)" regarding the date he obtained tenure, when according to
our telephone conversation with him, he actually was appointed as an associate professor in (redacted).
  The subject was granted tenure effective (redacted).
  The program application indicates that it was signed by (redacted) on (redacted)and was received by NSF
on (redacted).
